                              Closeout for M95080034

    In August 1995, the university1 where the subject2 was a postdoctoral
researchef3 informed OIG that it had finished an inquiry and was proceeding with
an investigation into an allegation of data falsification against the subject. The
subject had sent his sample to a company4for analysis and received a faxed analysis
of the results. The results apparently did not agree with the subject's expected
theoretical calculations as well as he had hoped, and the subject f a l d e d the results
presented in the report to better agree with his predictions. The falsified report was
discovered, and the University began an inquiry.
   OIG's investigation report and NSF's Deputy Director's letter reflecting his
decision constitute the closeout for this case.


cc: Investigations, Legal, AIG-Oversight, IG




   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
     (footnote redacted).


                                   Page 1 of 1
                    :   NATIONAL SCIENCE FOUNDATIO
                           4201 WllSON BOULEVARD
                          ARLINGTON, VIRGINIA 22230




                                     April 2, 1998
    OFFICE OF THE
   OEPUND(RECTOA

 Via Federal Emrese




 Re:   Notice of Misconduct in Science Determination
 Dear Dr.
 The National Science Foundation8s Office of Inspector General.
 (OIG) issued an Investigative Report on October 6, 1997 in which
 it found that you falsified data in an elemental analysis report
 in connection with NSF-supported scientific research. A copy of
 the investigative report is enclosed.


The Foundation's administrative record indicates that you were
formerly a postdoctoral researcher in the            Department at
                        (the University). While at the
University, you worked with Dr.              , the Principal
Investigator (PI) on an NSF grant (NSF Grant
entitled
             .
            The research involved synthesis of new chemical
compounds. You falsified the quantities of carbon and hydrogen
presented in the elemental analysis report prepared by
               to support a new method you were promoting to
synthesize new chemical compounds. The falsified data appeared
in a draft manuscript.
The OIG provided you with an opportunity to comment on its draft
investigative report. In your letters dated August 23, 1997 and
September 26, 1997, you admit that you purposely altered the
data. Because you were concerned that the PI would preclude you
from completing your research if he learned of the actual test
results, you altered the results in case he asked to see them.
You indicated that you did not have much time left to complete
your research before your departure from the University and that
you were trying to ensure your right of authorship in upcoming
publications.
Under NSFts misconduct in science and engineering regulations,
Nmisconductn is defined to include "fabrication, falsification,
plagiarism, or other serious deviation from accepted practices in
 proposing, carrying out or reporting results from activities
 funded by NSF  ... * 45 CFR §689.1(a). You falsified data and
 your falsification was a serious deviation from accepted
 practices within the scientific community. I therefore conclude
 that you committed misconduct in science.
 NSFts regulations establish three categories of actions (Group
  (I, 11 and 111) th'at can be taken in response to a finding of
 misconduct. 45 CFR §689.2(a). Group I actions, the least severe
 of the sanctions, include letters of reprimand and requiring
 certifications or assurances of accuracy or compliance with
                                              .
 particular requirements. 45 CFR 9689.2 (a) (1)
 In deciding what response is appropriate when misconduct is
 found, NSF must consider the seriousness of the misconduct;
 whether it was deliberate or careless; whether it was an isolated
.event or part of a pattern; and whether the misconduct affects
 only certain funding requests or has implications for any
 application for funding involving the subject of the misconduct
 finding. 45 CFR 1689.2 (b).
The administrative record indicates that you purposely falsified
data. You carefully forged the report so that it would appear
unaltered in order to deceive the PI. You altered the carbon and
hydrogen results in the report to bring them.closer to your
theoretical prediction and prove that you had synthesized the
target compound.
Falsification of data is a serious offense because it distorts
the scientific record. The scientific record is the foundation
for all future research. Both the Federal Government and the
scientific community have a vital interest in protecting the
integrity of the research process.
In your defense, you claim that you never took any active steps
to communicate the falsified data to the PI. Rather, you state
that it was          :, who also worked on the project, who
unknowingly took the altered data from the file and incorporated
it into a report being prepared for the PI. Of far greater
significance, however, is the fact that you deliberately altered
the data and that you did so for the purpose of misleading the PI
if he inquired about the test results. However, the severity of
the misconduct is mitigated by the fact that there is no evidence
in the record that you have engaged in falsification on other
occasions.
Based on the above facts, I will require that if you submit any
proposals or reports to NSF or report on the results of any NSF-
supported research within three years of the date of this letter,
you must submit a separate written certification to NSF's OIG.
The written certification shall state that to the best of your
knowledge, the documents contain neither false data nor
hypotheses or conclusions based upon falsified data. The
certification should be sent to the Assistant Inspector General
for Oversight, 4201 Wilson Boulevard, Arlington, Virginia, 22230,
at the same time that you submit the proposal or report to NSF or
report the results of the NSF-funded research. In addition, your
Dean or supervisor on the project must also submit an assurance
to the OIG that to the best of his or her knowledge, your
proposal or report submitted to NSF, or report of results from
NSF-funded research does not contain falsified data and presents
neither hypotheses nor conclusions based upon falsified data.
Procedures Governins Awweals
Under our regulations, you have 30 days after receipt of this
letter to appeal in writing, to the Director of the Foundation.
                .
45 CFR 8689.9 (a) Any appeal should be addressed to the Director
of the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. For your information, I am attaching
a copy of the applicable regulations. If you have any questions
about the foregoing, please call Lawrence Rudolph, *General
Counsel, at (703) 306-1060.

                                    Sincerely,



                                    Acting Deputy Director


Enclosures (2)
Investigative Report
Misconduct in Science Regulations
              CONFIDENTIAL




       NSF OIG INVESTIGATION
                          REPORT


                             October 6, 1997

                  OIG Case Number M95080034




This document is lent to you FOR OFFICIAL USE ONLY. It remains the property
of the Office of Inspector General. It may not be reproduced. It may be disclosed
outside NSF only by the Inspector General, pursuant to the Freedom of Information
and Privacy Acts, 5 U.S.C. $9 552, 552a.
       REPORT OF INVESTIGATION INTO AN ALLEGATION
               OF MISCONDUCT IN SCIENCE

                                     SUMMARY
   The Office-of Inspector General (OIG) has concluded that the subject,l formerly a
postdoctoral researcher a t the University,2 falsified data in a n elemental analysis
report (the report) while being supported by the PI's NSF grant.3 This conclusion is
based on the subject's own statements, and the inquiry and investigation performed
by the institution.      The uncontested evidence establishes that the subject
purposefully falsified data i n the report as support for a new method he was
promoting to synthesize new chemical compounds. The subject admitted on several
occasions to falsifying the data, and explained his motive a t length in writing. In
addition, a preponderance of the evidence establishes that the subject discussed the
compound, the analysis of which he falsified, in a group meeting, and bore
responsibility for the appearance of the falsified data in a draft research report that
was being prepared for publication.
    OIG recommends that NSF find that the subject committed misconduct in
science and take the following actions a s a final disposition in this case. First, a
letter of reprimand from NSF's Deputy Director should be sent to the subject
informing him that NSF has made a finding of misconduct in science against him.
Second, he should be required, for a period of 3 years from the final disposition of
this case, to submit, in connection with any NSF-supported publication or
submission to NSF, a certification to OIG that to the best of his knowledge, his
documents contain no false data, and no hypotheses or conclusions based upon
falsified data. Third, the subject should be required to ensure that his Dean, or
appropriate supervisory official, provides a n assurance that, to the best of his or her
knowledge, the subject's work associated with any NSF-supported publication or
submission to NSF does not contain falsified data and presents neither hypotheses
nor conclusions based upon falsified data.



                                  BACKGROUND
   The subject, and his wife, were postdoctoral researchers a t the University
working with the PI. The subject was supported through the PI's NSF grant. The
subject was working with the PI on research to synthesize new chemical
compounds. The subject sent a new compound to the company4 for elemental

   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 (footnote redacted).
analysis of carbon and hydrogen. He received a faxed analysis of the results
(Exhibit 1) on April 21, 1995. The analysis reported the elemental composition of
carbon and hydrogen in the compound. The results apparently did not agree with
the subject's expected theoretical calculations a s well a s he had hoped, and the
subject allegedly falsified the percent of both carbon and hydrogen presented in the
report (Exhibit 2) to better agree with his predictions. The falsified report was
discovered and the University began a n inquiry.
    I n August 1995, the University informed us that it had concluded that there was
sufficient substance to the allegation that the subject falsified data in the report,
and that it would proceed with a n investigation. The University presented us with
its inquiry report (Exhibit 3) and its misconduct regulations (the Interim Research
Misconduct Policy).
   Consistent with NSF's position that "awardee institutions bear primary
responsibility for prevention and detection of misconduct" (45 C.F.R. § 689.3 (a)), we
deferred our inquiry and any investigation until the efforts at the institution were
concluded.
   In November 1995, the University provided us with a copy of its investigation
report (Exhibit 4) and supplementary documents. We reviewed the University's
report and concluded that it had satisfactorily and fairly addressed the allegation,
and that the subject had a n opportunity to respond to the allegazion before any
action was taken by the University.
   The investigation Committee reviewed the PI'S logbook, the allegedly falsified
and the authentic analysis reports, the draft manuscript of a research report being      '
prepared for publication, and material presented by the subject in his defense. It
also interviewed the PI. The Committee concluded the subject's falsification of the
data in the report constituted misconduct in science.




                       UNIVERSITY'S INVESTIGATION
    Following its inquiry, and the subject's response to the inquiry, the University
convened a five-member investigation Committee with expertise in biology,
meteorology, chemistry, and material science and engineering to investigate the
allegation against the subject. The investigation Committee members had
experience submitting proposals to, and receiving support from, NSF, and thus, had
experience in carrying out research under NSF awards.
                                              History
    The Committee's investigation report began with a historical presentation of
events that led to the discovery of the falsified report. A faculty member in the PI'S
department found what looked like a tampered document (the report-Exhibit 2-
was described as "a pretty. good paste-up joy5) in the departmental photocopy
machine and traced it back to the PI. The PI recognized it a s a n analysis report of a
chemical compound that the subject was preparing and studying for the PI. The
subject had had the report faxed to him from the company that performed the
analysis. The subject also received the copy that the company mailed. The P I .
contacted the company that provided the analysis and asked for another copy of the
analysis to be faxed directly to him (Exhibit 1). After comparing the report found in
the photocopy machine with the analysis he received directly from the company, the
PI noticed that the data in the two documents were different.6 When the PI
received a draft manuscript that contained the data from the report found in the
photocopy machine, the PI followed the University's procedure for making an
allegation of misconduct in science, and notified the Chair of his department. The
Chair and the PI then arranged a meeting between them and the subject. During
this meeting, the subject was confronted with the allegedly falsified report, and the
subject admitted that he had falsified the data in the report (Exhibit 6, pg. 1). The
Chair forwarded this information to the Vice President for Research (the VP) who
began a n inquiry. During a meeting with the inquiry Committee, "[the subject]
fully admitted modifying the results from the [company]."7 The subject was notified
that the inquiry Committee concluded that there was enough evidence to justify an
investigation into the allegation that he falsified data. The subject, who had
returned to his home country,g responded to the inquiry report from there.




    6  Transcript of the Interview with the PI, September 12, 1995,Exhibit 5,pg. 4.
    6  The subject's research was focused on increasing the number of carbon atoms in the compound
he was synthesizing. Elemental analysis is one method used by chemists to confirm the composition
of a compound. The company the subject submitted his sample to used a n elemental analysis to
                                                                                                            11
                                                                                                            I

experimentally measure the percentages of carbon and hydrogen by weight in
                               -           - --
subject's theoretical ~ r e d i ~ t i 0i.e.,_his
                                        2,       'target'_compound,
                                                              - has the formula:
                                                                                   - ---
                                                                                 - the compound.
                                                                                           -     The
                                                                                             whiqh is
                                                                                                        II
                                                                 --       - -=                   - -7

a compound with:                           , '
                                             i.r                                                    3
                                                                                                        I


silicon, and phosphorus atoms. Accordingly, a pure sample of this compound would 6e, by weight,
62.22% carbon and 5.30% hydrogen (see Exhibit 1). Although actual results always vary somewhat          !
from the predicted values, a sigdicant variation would be inconsistent with a conclusion that the
submitted sample was a pure sample of a compound with the predicted chemical composition. The           I
company's analysis of the sample submitted by the subject showed 59.04% carbon and 5.46%                1
hydrogen by weight (see Exhibit I), which is not consistent with the subject's target compound. This
result would preclude a chemist from reporting the successful synthesis of the target compound. In
contrast, the analysis set out on the altered report found in the photocopy machine, which showed
61.94% carbon and 5.36% hydrogen by weight (see Exhibit 2), would (if true) support the conclusion
that the subject had synthesized his target compound.
                                                                                                        1
                                                                                                        I
                                                                                                        t
     7 The University Inquiry Committee's Memorandum, Exhibit 3, pg. 2.
     8 (footnote redacted).
                                                                                                        I
                  The subiect's remarks on the inquirv report (Exhibit 7)
     The subject explained his research history with the PI and the PI'S research
  group. He said that he had developed a n innovative methodology that was a n
  important breakthrough in the field. The subject claimed that the PI would not let
  him publish any results deriving from his new methodology without further tests,
  and that the PI tried to slow the work down. The subject also claimed that the PI
  was planning to publish these results without the subject as a co-author and that
  this led to a n argument between them. The subject said he "was afraid that [the PI]
  will prohibit me to go further"9 without additional tests that would support the
. subject's new methodology. The subject stated that he was sure, based on the
  results of a different type of test from the one performed by the company, that he
  had created the 'target' compound.10 The subject stated he "corrected the analysis
  report he received from the company for his "personal files and not to publish them,
  [bold emphasis omitted111 just in case [the PI] ask[ed] for them."l2
    Regarding the claim that he presented the data as real, the subject stated that
       "I have never presented or reported this faked valuer131 to [the PI]. I
       have only prepared it to defence [sic] my professional interest and
       stored in my personal file with a [foreign language] comment 'not real',
      just in case [the PI] wants to stop my work because of a n incorrect
       [elemental analysis] value.''l4
The subject wrote that while presenting a transparency during a staff meeting, he
had discussed several compounds related to his methodology that "had been
introduced together in a summarizing manner with the oral comment of
'completition [sic] is still in progress"' apparently implying that he had not
presented the actual falsified values themselves.15 Regarding the appearance of the
allegedly falsified results in a draft manuscript, the subject claimed that his wife,
who worked in the same research group of which he was in charge, removed the
altered report from his desk to use in the manuscript she was preparing for
publication. He included a handwritten statement from his wife with his response
in which she said that she had removed the report from his desk without asking, or
otherwise informing him.16


    9 July 20, 1995, "Statement of [the subject] concerning the research misconduct investigation
requested by [the PI]," Exhibit 7, pg. 2 .
    10 Exhibit 7,pg. 1.
    l 1 Bold and underline emphases occur with hlgh frequency in the various documents quoted in
this report. To avoid a possible distraction to the reader, the emphases are omitted from all
quotations in ths report.
    12 Exhibit 7,pg. 2.
    13 Although the subject referred to "this faked value," it should read "these faked values" since
there was more than one value that the subject admitted he had falsified.
    14 Exhibit 7,pg. 2.
    15 Exhibit 7,pg. 3.
    16 Exhibit 8.
                      Investigation Committee Report (Exhibit 4)
Findings
   After evaluating the subject's response, the VP convened a committee to
investigate the allegation. The investigation Committee concluded that
       "[tlhe analysis report was altered by [the subject]. All of the evidence
       (including [the subject's] admission in his . . . letter) supports the
       conclusion that [the subject] altered the results of the [company]
       analysis performed on sample # . . . and faxed to [the subject] . . . . The
       correct analysis showed that the submitted sample was composed of
       59.04%carbon and 5.46%hydrogen; [the subject] used careful forgery
       to alter this to 61.94% carbon and 5.36% hydrogen--closer to the
       theoretical prediction. After making a photocopy of the altered report,
       [the subject] apparently inadvertently left the original in the
       photocopier, where it was found by another member of the department
       and reported to [the P1:]."17
    The Committee found that "[tlhe altered analysis [report] was presented as
real."ls The Committee stated that the PI "provided copies of his incident log and
laboratory reports which indicate that the altered data were presented to him on
several occasions."~~
                    The Committee noted
       "[the subject's] claims that his wife and co-worker . . . unknowingly
       incorporated that altered data from his files (where it was purportedly
       marked with the handwritten note 'not real' in [the subject's native
       language], a language [the subject's wife] reportedly does not read) into
       drafts of the reports that she was typing for submission to [the
       PI]. . . ."20
However the Committee did not find this explanation satisfactory.
      "After reviewing all of the evidence, the Committee concludes that,
      whatever his degree of direct responsibility for typing the incorrect
      data into the reports, a s the author of the fabricated data [the subject]
      is ultimately responsible for the fact that the altered results were
      presented to [the PI] and other coauthors in preliminary drafts of
      research papers. The Committee believes that had the alteration not
      been discovered, the altered data would very likely have been included
      in a published report on this research."zl



   17 From the University Investigation Committee's Memorandum to the Vice President .for
Research, Exhibit 4, pg. 2.
   18 Ibid.
   19 E x h b i t 4,pp. 2-3.'
   20 Exhibit 4, pg. 3.
   21 Ibid.
(Note that the Committee referred to reports and drafts. The subject disputed the
existence of more than one document.)
    The Committee found that "[tlhe alteration of data damaged [the PI's]
research."22 Examples of the damage the Committee cited were the PI's claims that
the "effort required to replicate andlor confirm data produced by [the subject] has
resulted in delay of submission of a competitive renewal on one of [the PI's] grants"
and that the "turmoil produced by the discovery of data alteration has also damaged
morale among other researchers in the group."23 With regard to the PI's and other
researchers' efforts to verify the subject's other results, the Committee concluded
"[tlhere is no evidence of other research misconduct by [the subject]."24


The Committee's Evaluation of Intent
    The University's misconduct regulation includes falsification in its definition of
research misconduct.25 The Committee stated "[tlhe standard definition of
falsification includes 'to alter a document in order to deceive'." It concluded,
without further explanation, that "falsification requires both alteration of a record
and use of the altered record with intent to deceive."26
    The Committee stated that "[tlhe fact that [the subject] forged a convincing
alteration of the microanalysis report is clearly documented and not contested."27
Regarding the subject's intent, the Committee found
          "[the subject's] creation and retention of a careful forgery creates a
          strong presumption of his intent to deceive and eliminates the
          possibility of 'honest error' in this case. After considering that the
          altered data were presented to colleagues in reports and drafts of
          research papers for nearly a month after the forgery occurred, the
          Committee concluded that [the subject] intended to deceive his
          colleagues and allow the altered data to pass into manuscripts
          submitted for publication."28
Thus, the Committee concluded that the subject had satisfied both of its criteria for
falsification.
    Regarding the subject's probable motive,


    22   Ibid.
    23   Ibid.
    24   Ibid.
    25 "'Misconduct' or 'Misconduct in Research' means fabrication, falsification, plagiarism, or other
practices that seriously deviate from those practices that are commonly accepted within the research
community for proposing, conducting, or reporting research," as defined in The University's Interim
Research Misconduct Policy,section IV.D.,pg. 2.
    26 E x h b i t 4, pg. 4.
   27    Ibid.
    28   Ibid.
          "[tlhe Committee concluded that the most likely reason for the data
          alteration was to save [the subject] the time and effort of preparing
          purer samples of the compound in question. [The subject] claims that
          the alteration was done under great pressure from [the PI] to complete
          manuscripts before the [subject and his wife] returned to pis
          homeland]. [The P.l:] denies that he set any deadlines for completion of
          the papers . . . ."29


Conclusion
   The Committee determined that the subject "falsified research results and
engaged in research misconduct a s defined in the University's Interim Research
Misconduct Policy."30
         "The Committee view[ed] the %falsificationof data as a violation of the
         University's policy prohibiting research misconduct, as well a s . a
         serious breach of research ethics, and believe[d.] that virtually all
         professional scientists worldwide would recognize what [the subject]
         did as improper."31
Although the Committee found the subject's actions were harmful to the PI'S
research, it also realized that
         "[blecause the alteration of data was discovered so soon after it
         occurred, however, the consequences of [the subject's] actions have
         been relatively minor. In view of the fact that [the subject] is no longer
         a n employee of [the University] and is working outside the United
         States, possible sanctions for his misconduct are quite limited."32
The Committee recommended that (a) the subject "be permanently barred from
teaching, presenting lectures or carrying out research a t the University," and
(b) the VP "notify appropriate authorities of [the subject's] misconduct so that they
can monitor 1) his future research conduct, and 2) his involvement in research
activities sponsored by U.S. government agencies."33



                       The subiect's remarks on the Committee's report
                           and recommended sanctions (Exhibit 9)
   The subject addressed many of the issues. raised by the Committee, beginning
with the finding that the altered data were presented as real. He reiterated from

   29   Exhibit 4, pg. 3.
   30   Ibid.
   31   Exhibit 4,pg. 4.
   32   Ibid.
   33   Ibid.
his response to the inquiry report that he "never presented the questioned values of
the elemental analysis to [the PI] or to any other coworker in the group."34 He
restated that, during the oral presentation, he said he was "still working on the
completion of the full characterization" of the compound that resulted from his new
methodology.35 He questioned the accuracy of the PI's incident log and laboratory
notebook, and disputed the PI's statement "'that the altered data were presented to
him on several occasions . . . ."'36 The subject said that the Committee's statement
that "altered results were presented to [the PI] and other coauthors in preliminary
drafts of research papers" required clarification.37 The subject said the original
manuscript listed only the subject, the subject's wife, and the PI as authors. The
subject wrote that only after it was determined that the project would not be
completed before the subject left the country, did the PI add two different
researchers a s co-authors, bringing the total number of authors to five. The subject
also objected to the PI's claim that more than one manuscript contained the falsified
data. He said that there was only a "first completed draft of one manuscript of only
one research paper."38 He explained that his wife removed the report, incorporated
it into this draft, and gave it to the PI without the subject's knowledge.
Furthermore, the subject said he never saw the manuscript, because the next day,
the Chair and the PI organized a meeting to discuss the allegedly falsified report
with the subject.39
    The subject strongly objected to the Committee's assessment of the damage his
altered report had on the PI's research.40 The subject also disagreed with the
Committee's assessment of his intent to deceive.           Again, considering the
Committee's statement "'that the altered data were presented to colleagues in
reports and drafts of research papers,"' the subject wrote that that statement was
not accurate because there was only "one draft of the experimental part of one
manuscript of one research paper." 41



                                UNIVERSITY'S ACTIONS
   The VP wrote the subject, notifjring him of the finding and that he had accepted
the recommended sanctions, namely, that (a) the subject "be permanently barred
from teaching, presenting lectures or carrying out research at" the University, and


  34 The subject's October 24, 1995, response to the VP on the Investigation Committee
Memorandum, Exhibit 9, pg. 2.
   35   Ibid.
   36   Ibid.
   37   Exhibit 9, pg. 2.
   38   Exhibit 9, pg. 3.
   39   Exhibit 9, pp. 2,3,5.
   40   Exhibit 9, pg. 3.
   41   Exhibit 9, pg. 5.
(b) that the VP "notify appropriate authorities."42 The VP wrote that he had
accepted both of the Committee's recommendations and that the subject could not
hold any teaching or research position a t the University, "whether or not that
involves a formal appointment."43 The VP also told the subject that NSF would be
informed of the V P s actions.
   The VP told the Chair of the Department to ensure that the subject was banned
from "teaching, presenting lectures, or carrying out research a t the University
. . . ."44


         OIG'S REVIEW OF THE UNIVERSITY'S INVESTIGATION REPORT
   NSF's misconduct in science and .engineering 8regulation-statesthat "after
receiving a report from a n external investigation by a n awardee institution . . . OIG
will assess the accuracy and completeness of the report and whether the
investigating entity followed usual and reasonable procedures. It will either
recommend adoption of the findings in whole or in part or . . . initiate a new
investigation." (45 C.F.R. 5 689.8 (a)).
    We concluded that the materials submitted by the University constituted a
satisfactory investigation into the allegation and that, despite the Committee not
specifying a standard of proof45 or level of intent, we could utilize the evidence
presented in the University's investigation report for our purposes. Additional
investigation by our office was not required.



             OIG'S ANALYSIS REGARDING MISCONDUCT IN SCIENCE
    NSF defines misconduct in science, in part, as "[flabrication, falsification,
plagiarism, or other serious deviation from accepted practices in proposing,.carrying
out, or reporting results from activities funded by NSF" (45 CFR § 689.1(a)(l)). A
finding of misconduct in science against a subject requiresbthat the subject both
committed a bad act and did so with a level of culpable intent that justifies taking
action against the subject. NSF's standard of proof in evaluating the evidence is a
preponderance of the evidence, and, in order to make a finding of misconduct, NSF
expects that the subject must have acted, minimally, with gross negligence.



    42 Exhibit 11.
    43 November 17, 1995, letter from the VP to the subject, Exhibit 11.
    44 November 17, 1995, letter from the VP t o the Chair of the PI'S department, Exhibit 12.
    45 Although the Committee did not specify which standard of proof they used to evaluate the
evidence used in their conclusion; the VP assessed it a s "clear and convincing evidence . . . ." See
Exhibit 12.
Motive
    The Committee "concluded that the most likely reason for the data alteration
was to save [the subject] the time and effort of preparing purer samples of the
compound in question."46 The subject essentially agreed in his response, stating
"[alt this stage, I wanted to save time to proceed [with] the chemistry . . . and not to
get st[u]ck on this step . . . ."47 The subject was apparently working under pressure
to complete his results. The subject and the PI disagreed about the pace of the
subject's research. The subject had only a few months to complete his research
before he returned to his home country where he had a job waiting for him. The
subject believed the PI wanted to slow down the subject's research by requiring
complete analysis of the compound before moving forward to the research the
subject was more interested in performing. (The subject noted ?[the PI's] strategy is
having the full characterization of a new-compound before making further progress
in the chemistry."* See also Exhibit 5, pp. 2-3 for the PI's statements on the
importance of this analysis.)
   The subject was also motivated by trying to secure his authorship rights on the
manuscript. In his response to the University Investigation Report, the subject
wrote:
         "that the members of the committee did not consider the conflict
         between [the PI] and me about authorship rights . . . which deeply
         influenced my working strategy under great pressure until my
         departure to [the Continent on which his homeland is located] and
         actually is the ultimate motive for my action."49
In fact, the subject presented his own "Summary of Fis] Motive." The subject
wanted to "lplrogress the chemistry a s fare [sic] as possible by myself to secure my
right of authorship, which was questioned by [the PI:] resulting in a big argue [sic]
already . . . on another issue."50 The PI described a discussion he had with subject
about proper inclusion of researchers as co-authors on publications resulting from
team projects (See Exhibit 5, pg. 6.). We believe the subject adequately expressed
his motive for falsifying the data-his fear of not being a co-author on publications,
and the time constraint due to his imminent departure.




   46   Exhibit 4, pg. 3.
   47   Exhibit 9, pg. 5.
   48   Exhibit 7, pg. 1.
   49   Exhibit 9, pp. 3-4.
   50   Exhlbit 9, pg. 5.
The Act
   It is uncontested that the subject falsified data in the report he alone received.
His action was made more serious by circumstances that will be described later in
this report.


Intent    '


   We believe the evidence demonstrates 'that the subject acted culpably when he
knowingly created a false document with the admitted intention of using it to
deceive the PI. We therefore conclude the subject acted purposefully.
   Evidence that the act was at least knowing includes that the subject was the
sole recipient of the company's fax of the original report of the analysis of the
material and noticed the results were not what he.had expected. The subject also
received the mailed hard copy of the original report and did not share it with the PI.
The subject carefully cut and pasted the original report's data, including matching
the font style and size of the original report, so this would appear unaltered and
closer to his theoretical values.
    We believe, however, that the subject acted purposefully. If the subject had not
intended to use the falsified report a s authentic, he would have merely crossed out
the real data and penciled in his "corrected values. This is especially compelling
since the subject "indicated [to the inquiry Committee] that in his judgement [sic]
all the data pertaining to this compound . . . were correct and this was the right
compound even though he was unable to obtain a correct experimental
microanalysis."51
    The subject admitted that he altered the company's original report "just in case
[the PI] ask[ed] for them," and, "just in case [the PI] wants to stop my work because
of a n incorrect [elemental analysis] valueF2.52He wanted to move forward with his
preferred research in the limited amount of time remaining before he left the PI'S
laboratory. The subject's statements show that he purposefully created the falsified
report to deceive the PI if the PI questioned the subject's results.53 Thus, we
conclude the subject purposefully created a falsified document.

    51 Exhibit 6, pg. 1.
    52 Exhibit 7, pg. 2.
    53 The subject claimed that he wrote "working value" and "not real" in a language no one, other
than himself, in the group reads a t the top of the report to substantiate his claim that this report
should not be used (see Exhibit 10). However, those phrases did not appear on the original, altered
report that was left i n the copy room, and therefore, could not have been on the original copy a t the
time it was made. Furthermore, if the subject had really intended that the report not be used, he
would have written those statements in English. We agree with the investigation Committee and
conclude that the carefulness of the forgery shows the subject intended to produce a report that
would fool anyone who saw it into believing it was authentic. His plan apparently worked. By his
own admission, when his co-author found the report in h s desk, the forgery was apparently so
convincing t h a t she did not doubt the report's authenticity and incorporated the results into the
manuscript she was preparing.
Seriousness
    The subject's action is a serious deviation from the accepted practice not only in
the subject's scientific community, but also in the wider scientific community. The
University concluded the subject "falsified research results and engaged in research
misconduct,"54 and "that virtually all professional scientists worldwide would
recognize what [the subject] did as improper."55 We agree. By carefully cutting and
pasting falsified data into the report to deceive the PI, the subject seriously
deviated from what the scientific community expects in accurately reporting
scientific results. The accurate reporting of scientific results is also NSF's
expectation. I n addressing the seriousness of the subject's act of falsifying data, we
discuss uncontested instances where the falsified data were incorporated into a
manuscript, and where the 'target' compound was described.


         Falsified data in the manuscript
   The subject claimed that his co-author retrieved the data from his personal files
and put them in the manuscript for publication, without ever mentioning it to him.
We find it difficult to believe that the subject's wife, who is also a co-author and a
member of the research team he directed and who was preparing the manuscript of
their joint research, would not, a t any time, mention to the subject that she had
removed data from his desk, and incorporated it into the manuscript.
    Even accepting the subject's claim, the subject's co-author knew where to look
for the subject's research results, as he left the report in his desk where he typically
kept his other laboratory notebooks. The PI thought that leaving the report
         "in a n official place in the lab where anybody could find it . . . is a n
         equal case of misconduct, instead of the active case of reporting it
         yourself, a s a passive case where you are leaving it to be discovered by
         somebody, [who] would have no reason to think [about] or,mistrust the
         data."56
We agree with the Committee that "[the subject] is ultimately responsible for the
fact that the altered results were presented to [the PI:]" in a draft manuscript and
"that had the alteration not been discovered, the altered data would very likely
have been included in a published report on this research."57




   54   Exhibit 4, pg. 3.
   55   Exhibit 4, pg. 4.
   56   Exhibit 5, pg. 4.
   57   Exhlbit 4, pg. 3.
           Presenting data to the research group
   The PI claimed that the subject presented the falsified results associated with
the compound in question. The subject claimed that he presented only the existence
and a generalization of the characterization of the compound, and said that when he
presented the transparencies to the group, he explained "that the work is in
progress."58 However, the subject added that he even "stepped further in the
reaction chemistry . . . because their reality or existence was never questioned by
me and even not by [the PI]."59 These varying accounts were not resolved by the
Committee and we do not resolve them here.
    Even if the subject did not present the falsified numerical values, he "mentioned
the existence and characterization of the compound,"60 notwithstanding the fact
that the results of the company's analysis did not support the conclusion that he
had successfully synthesized the target compound. He misled his research group
into believing that his research was proceeding as planned. At no time did the
subject indicate to the PI or group that he had, in fact, not produced a pure
compound or that his methodology had not worked as expected. Because the results
of the company's analysis of the compound did not match the subject's theoretical
prediction, by such a large degree that he felt obliged to falsify the results in case he
were questioned about them, he should have indicated to the group either that he
had not successfully prepared the compound he sought or that he was having
difficulty doing so.
    Therefore, we do not find the subject's explanation, even if accurate,
exonerating. When scientists present research results, whether or not the results
are preliminary or final, they are expected to provide real data derived from actual
experiments or calculations. Presentation of preliminary results does not give one
license to falsify data or lead the audience into believing one has obtained results
that, in fact, one has not. If the subject had not intended to deceive the group, he
would not have claimed he produced the compound in the first place. We believe
the subject, by presenting the compound as the desired result, deceived his group
into thinking his research was progressing according to his theoretical predictions,
to avoid any questions that might be raised about the real data and its implications
for his methodology. The subject's actions violate the trust scientists have that each
faithfully presents the results from experiments.61 Laboratory group meetings are
specifically designed for presenting data and results, both good and bad, for
feedback. This is one of the first forums for updating the PI and seeking advice
from colleagues.


   58    Exhibit 9, pg. 5.
    59   Exhibit 9, pg. 2.
   60    Ibid.
   61  Prior to this incident, analysis reports were returned directly to the person in'the laboratory.
The PI has since installed a fax machine in his laboratory and reports are now received by his
secretary.
                                                                                                   '
        OIG'S CONCLUSION REGARDING MISCONDUCT IN SCIENCE
    We conclude that in creating the report with the intent to deceive the PI, the
subject acted purposefully. Since (a) the uncontested evidence establishes the
conclusion that the subject falsified the report, (b) that he did so purposefully, and
(c) the act itself is a serious deviation from accepted practices, we conclude that the
subject committed misconduct in science.



                        OIG'S RECOMMENDED DISPOSITION
    Under § 689.200) of NSF's misconduct in,science and engineering regulation,
when deciding what actions are appropriate when misconduct is found, NSF
officials should consider the seriousness of the misconduct, the intent with which
the subject acted, any evidence of a pattern, and finally, its relevance to other
funding requests or awards involving the university or the individual.
   We conclude the subject purposefully falsified data, and that this behavior was a
serious deviation from the practices of both the subject's research community as
well as the broader scientific community, and that it violated NSF's expectation
that research is to be carefully performed and accurately reported.
    Although debarment is a n action that can be taken to protect the government's
interest in cases of falsification, for several reasons, we do not believe it is necessary
in this case. The Committee reviewed the subject's and PI'S notebooks and other
materials and found no evidence of a pattern of data falsification. The subject
"indicated that this was the only incident in his career of this nature."62 The
subject's falsification was limited to two microanalysis test results in one technical
report. Second, the subject's responses contain statements of his remorse, and the
University inquiry report noted that the subject "expressed a great sense of guilt
and frustration about this incident and clearly regrets his actions."63 Finally, the
subject's access to NSF funding is limited because he has returned (for the
foreseeable future) to his home country and is not affiliated with a U.S.
institution.64 A citation search shows that since 1994, before this incident of
misconduct, until now, he had published papers with only one U.S. scientist not
affiliated with the University. We believe that the certification and assurance


   62  Exhibit 6, pg. 1.
   63  Exhibit 3, pg. 2.
    64 NSF rarely provides support to foreign institutions (see NSF's GRANTPROPOSAL       GUIDECh. 1,
$ C(6)). Such awards are made only when the foreign organization has unique facilities, geographc
location, or other resources not available to U.S. investigators, and are a very small fraction of NSF
support (see NSF's PROPOSAL    AND AWARDMANUAL3 335). If a foreign scientist is affihated with a
U.S. institution that permits him or her to be a principal investigator, NSF imposes no additional
requirements based on the scientist's nationality.
actions recommended below are appropriate actions to take in this case.65 They
ensure that, if the subject affiliates himself with a n NSF-supported activity, he
must (a) review the concept of misconduct and state that he has not committed
additional acts of falsification, and (b) provide for a n independent review of his
work.
    OIG recommends several actions by NSF in response to the misconduct in
science by the subject.
1) The subject should be sent a letter of reprimand stating that NSF has made a
   finding of misconduct in science against him.66
2) NSF should also require, for a period of 3 years from the final disposition of this
   case, that in association with any NSF-supported publication or submission to
   NSF, the subject separately certify to OIG that the document contains, to the
   best of the subject's knowledge, no falsified data and presents neither
   hypotheses nor conclusions based upon falsified data.67
3) NSF should, for the same period of time, require the subject to solicit a n
   assurance from his Dean, or appropriate supervisory official a t his university,
   that to the best of his or her knowledge, the subject's work associated with any
   NSF-supported publication or submission to NSF does not contain falsified data
   and presents neither hypotheses nor conclusions based upon falsified data.
The subject's certification and the Dean's, or appropriate university official's,
assurance should be sent to the Assistant Inspector General for Oversight for
retention in OIG's confidential file on this matter.68



                  THE SUBJECT'S RESPONSE TO OIG'S REPORT
    The subject provided a summa& of facts from his point of view with his response
to OIG's draft investigation report (Exhibit 13). The subject's response contained no
new information that caused us to modify our report. The subject commented that
the VP had said "it is unclear whether [the subject] intended to use these false data
in reports," and the subject's "actions had very little consequence to [the PI'S]
research program." The subject acknowledged that "what b e ] did is wrong. . . and
b e ] deeply regret[s] the action."69 The subject conceded that he "ought to accept the
recommended actions by the NSF O I G and that he "understand[s] that in case of

    65 NSF management may choose to notify the subject's home university of his misconduct. After
considering all of the circumstances-including the fact that it is highly unlikely that the subject will
have access to federal funds and the fact that this was a n isolated instance of misconduct-we are
not recommending notification of the subject's home university.
    66 This is a Group I action (5 689.2(a)(l)(i)).
    67 This is a Group I1 action ($ 689.2(a)(2)(ii)).
    68 This is a Group I action ($ 689.2(a)(l)(i.i)).
    69 Exhibit 13, pg. 1.
any kind of NSF connection [the subject] [will] have to get checked all data,
hypothesis etc. by a n independent authority, who will provide the approblriate
assurances for [OIG]."70




  70   Exhbit 13,pg. 2.
